Report No. DODIG-2012-092                   May 25, 2012




    Development of Individual Equipment Requirements
     for the Afghan National Army Needs Improvement
Add
  ditional Co
            opies
To obbtain additio
                 onal copies of this reportt, visit the Web site of thhe Departmennt of Defensse
Inspeector Generaal at http://ww
                               ww.dodig.mmil/audit/repoorts or contaact the Seconndary Reportts
Distribution Unitt at (703) 6044-8937 (DSN N 664-8937)) or fax (5711) 372-7469.

Suggestions for Audits
                     s
To suuggest or req
                 quest audits, contact the Office of thee Deputy Insspector Geneeral for
Auditting by phonne (703) 6044-9142 (DSN N 664-9142),, by fax (5711) 372-7469,, or by mail:

                        Departtment of Deffense Officee of Inspector General
                        Office of the Depuuty Inspectorr General forr Auditing
                        ATTN N: Audit Sugggestions/13F25-04
                        4800 Mark Centerr Drive
                        Alexanndria, VA 222350-1500




Acro
   onyms
ANAA                            Afghan Naational Armyy
ANSF F                          Afghan Naational Securrity Forces
ASFFF                           Afghanistaan Security Forces Fund
CECOOM                          U.S. Armyy Communications-Electrronics Comm    mand
GIRooA                          Governmennt of the Islaamic Republlic of Afghannistan
HF                              High Frequuency
LCMMC                           Life Cycle Managemennt Commandd
NTMM-A/CSTC-A
            A                   NATO Traaining Missioon-Afghanisstan/Combinned Security
                                    Transittion Commannd-Afghanisstan
OCIE
   E                            Organizatioonal Clothinng and Indiviidual Equipm
                                                                               ment
SCIP
   P                            Security Coooperation Information Portal
TACOM                           U.S. Armyy TACOM Life Cycle Management Command
VHF                             Very High Frequency
                                                                                                      1
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE 

                                     4800 MARK CENTER DR IVE 

                                  ALEXANDR IA. VIRGINIA 22350-1500 





                                                                                       May 25, 2012

MEMORANDUM FOR COMMANDING GEN ERAL, NATO TRAINING MISSION­
                 AFGHANISTAN/COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN

SUBJECT: 	 Development of Individual Equipment Requirements for the Afghan National Army
           Needs Improvement (Report No. DODIG-2012-092)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report. NATO Training Mission­
Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A) did not
develop adequate sustainment requirements for the 15 types of ANA individual equipment items
that we reviewed. Specifically, NTM-A/CSTC-A did not develop supportable equipment
recapitalization and maintenance requirements. Not developing supportable sustainment
requirements could adversely affect the availability of serviceable equipment, impact the ability
of the Afghan National Army to sustain operations, and hinder the effective transition of security
responsibilities to the Government of the Islamic Republic of Afghanistan by 2014.

000 Directive 7560.3 requires that recommendations be resolved promptly. The
NTM-A/CSTC-A Deputy Commander-Army's comments to Recommendation I .b were partially
responsive. Therefore, we request that the NTM-A/CSTC-A Deputy Commander-Army provide
additional comments by June 25, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audcIev@dodig.mi l. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077.



                                           ~Jac   eline 1.    ~icrf!!!~
                                              As stant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2012-092 (Project No. D2011-D000AT-0222.000) 	                         May 25, 2012


              Results in Brief: Development of Individual
              Equipment Requirements for the Afghan
              National Army Needs Improvement
What We Did                                                   were sufficient to replace irreparably
                                                              damaged or lost items;
We determined whether the process for
                                                           	 had no assurance that items would be
developing the individual equipment
                                                              available to replace a potential 29,569
requirements for sustainment of the Afghan
                                                              irreparably damaged or lost ANA
National Army (ANA) was adequate.
                                                              individual equipment items, valued at
Specifically, we reviewed the planning and
                                                              approximately $49 million, acquired
processes for determining sustainment
                                                              before FY 2012; and
requirements for 15 types of ANA individual
equipment items in 3 commodity areas with a                	 did not have information to make
total cost of approximately $667.6 million.                   informed decisions on ANA individual
                                                              equipment sustainment requirements.
What We Found                                           What We Recommend
NATO Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan                 The Commanding General, NTM-A/CSTC-A
(NTM-A/CSTC-A) officials did not develop                should develop and implement a plan to:
adequate sustainment requirements for the                  	 identify and obtain data necessary to
15 types of ANA individual equipment items.                   support ANA individual equipment
Specifically, officials did not develop                       recapitalization and maintenance
supportable recapitalization and maintenance                  requirements;
requirements.                                              	 determine the condition of individual
This occurred because NTM-A/CSTC-A:                           equipment items acquired before
                                                              FY 2012 and identify recapitalization
   	 relied on anecdotal evidence, experience,               requirements; and
      and professional judgment to develop the             	 obtain information from subject-matter
      recapitalization rates;                                 experts to assist with the development of
   	 could not determine the items identified                sustainment requirements.
      for recapitalization or the process used to
      develop the requirements in FY 2007               Management Comments and
      through FY 2011;
   	 did not request all necessary maintenance         Our Response
      data from contractors; and                        The NTM-A/CSTC-A Chief of Staff, Deputy
   	 did not request subject-matter expertise          Commander-Army, responded for the
      from the Life Cycle Management                    Commanding General, NTM-A/CSTC-A, and
      Commands in developing sustainment                agreed with the recommendations. The
      requirements.                                     comments were responsive for
                                                        Recommendations 1.a, 2, and 3. The comments
As a result, NTM-A/CSTC-A:                              for Recommendation 1.b were partially
                                                        responsive. We request NTM-A/CSTC-A
   	 had no assurance that 2,613 individual            provide additional comments by June 25, 2012.
      equipment items, costing $5.6 million,            Please see the recommendations table on the
      planned for recapitalization in FY 2012           back of this page.


                                                    i
Report No. DODIG-2012-092 (Project No. D2011-D000AT-0222.000)           May 25, 2012

Recommendations Table

             Management                       Recommendations         No Additional
                                             Requiring Comment    Comments Required
Commanding General, NATO Training            1.b                 1.a, 2, and 3
Mission-Afghanistan/Combined Security
Transition Command-Afghanistan

Please provide comments by June 25, 2012.




                                        ii
Table of Contents

Introduction                                                              1      


      Audit Objective                                                     1

      Background on Sustainment of Individual Equipment for 

         Afghan National Army                                             1

      Control Weaknesses in Developing Individual Equipment 

         Requirements for Sustainment                                     3


Finding. NTM-A/CSTC-A Process for Developing Sustainment Requirements 

for ANA Individual Equipment Was Inadequate                               4


      Availability of Recapitalization Rate Data                          4

      Use of Recapitalization Items                                       5

      Use of Contractor Maintenance Data                                  7

      Use of Life Cycle Management Command Expertise                      8

      Recommendations, Management Comments, and Our Response              9


Appendix

      Scope and Methodology                                               12 

        Use of Computer-Processed Data                                    13 

        Prior Coverage                                                    13 


Management Comments

      NATO Training Mission-Afghanistan/Combined Security Transition 

        Command-Afghanistan                                               15 

Introduction
Audit Objective
Our objective was to determine whether the development process for Afghan National
Army (ANA) individual equipment requirements for sustainment was adequate. See the
Appendix for a discussion of the scope and methodology and prior coverage related to the
objective.

Background on Sustainment of Individual Equipment
for Afghan National Army
Afghanistan Security Forces Fund
Congress created the Afghanistan Security Forces Fund (ASFF) in FY 2005 as an
emergency supplemental appropriation for equipment and services to support the Afghan
National Security Forces (ANSF). Congress appropriated approximately $39.7 billion to
this fund from FY 2005 through FY 2011. ASFF, as appropriated by Congress, provides
funds to the Secretary of Defense to allow the Commanding General, NATO Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan
(NTM-A/CSTC-A) to assist the security forces of Afghanistan. This includes the
provision of equipment, supplies, services, training, facilities, and infrastructure. Since
its creation, ASFF has funded activities to allow the Government of the Islamic Republic
of Afghanistan (GIRoA) to begin its transition to assuming the lead for its own security
operations by 2014.

Definition of Terms
Sustainment
Joint Publication 3-0, “Joint Operation,” August 11, 2011, defines sustainment as the
provision of logistics and personnel services necessary to maintain and prolong
operations through mission accomplishment and redeployment of the force. Further, it
states that the sustainment function encompasses a number of tasks, including
coordinating the supply of food, fuel, arms, munitions, and equipment and providing for
maintenance of equipment. NTM-A/CSTC-A uses recapitalization and maintenance as
two primary tools for sustaining ANA individual equipment.

Recapitalization. NTM-A/CSTC-A defines recapitalization as the acquisition of
equipment for replacement and battle damage losses necessary to maintain a
combat-ready ANSF force. Recapitalization rates provide the percent and time necessary
to recapitalize 100 percent of the assets acquired. For example, the weapons
recapitalization rate is 5 percent, or 20 years. Therefore, if you replaced 5 percent of the
weapons per year for 20 years, you would have replaced 100 percent of the weapons by
the end of the 20 years.



                                             1

Maintenance. Joint Publication 1-02, “Department of Defense Dictionary of Military
and Associated Terms,” November 8, 2010, defines maintenance as all actions taken to
retain materiel in a serviceable condition or to restore it to serviceability. Maintenance
activities include inspection, testing, servicing, classification of serviceability, repair,
rebuilding, and reclamation.

Individual Equipment
For the purpose of this audit, individual equipment is any item worn or carried by the
individual ANA soldier. NTM-A/CSTC-A categorizes equipment into specific
commodity areas. We identified 15 individual equipment items from three commodity
areas: weapons, communication, and other ANA equipment. Individual equipment items
in the weapons commodity area include the M16A2 rifle, 9MM pistol, M4 rifle, M249
machine gun, M240B machine gun, M24 sniper rifle, M203 grenade launcher, and RPG-
7 grenade launcher. Items in the communication commodity area include tactical
telephone with field wire, very high frequency (VHF) manportable radio, high frequency
(HF) manportable radio, VHF handheld radio, and night-vision goggles. Items in the
other commodity area include helmets and individual body armor. According to the
ANA Tashkil,1 these 15 items account for 659,144 individual equipment items with a
total cost of approximately $667.6 million.

NTM-A/CSTC-A Sustainment and Recapitalization Budget
Requests for FY 2009 through FY 2012
NTM-A/CSTC-A requested 519 weapons, valued at $34 million, for recapitalization in
the FY 2009 ASFF budget justification. Additionally, NTM-A/CSTC-A requested
14,791 weapons, valued at $62 million, and 7,200 communication assets, valued at
$73 million, for equipment to replace unserviceable weapons and provide sustainment
spares for radios lost in battle in the FY 2010 ASFF budget justification. The
NTM-A/CSTC-A FY 2011 ASFF budget justification also included a request for 31,698
weapons, valued at $64 million, to replace unserviceable weapons.2

NTM-A/CSTC-A requested $3.3 billion for sustainment of ANA in the FY 2012 budget,
including $400.6 million for organizational clothing and individual equipment (OCIE),
$40 million for weapons maintenance, and $6.6 million for radio maintenance. In
addition to sustainment, NTM-A/CSTC-A requested recapitalization assets within the
$1.6 billion budget request for equipment and transportation. Recapitalization assets
requested in the FY 2012 budget were based on recapitalization rates for weapons of
5 percent (20 years); communications equipment of 10 percent (10 years); and for all
other ANA equipment of 5 percent (20 years).




1
  The Tashkil is a document that prescribes the standard equipment of the ANA unit for combat or service
under normal operating conditions.
2
  The number of weapons and communication assets identified for FY 2009 through FY 2011 include all
items presented in the budget justification, and are not limited to the 15 individual equipment items
reviewed.

                                                    2

Life Cycle Management Commands
A Life Cycle Management Command (LCMC) unites mission areas by creating single
commands with responsibility for the life cycle management areas of technology,
acquisition, and sustainment for all systems assigned to the LCMC. Two LCMCs are
responsible for the sustainment of individual equipment for U.S. Forces: U.S. Army
Communications-Electronics Command (CECOM) and U.S. Army TACOM Life Cycle
Management Command (TACOM).

According to CECOM, its mission is to develop, acquire, provide, and sustain
communications and electronics equipment for the joint warfighter. Specific
responsibilities include command, control, computers, intelligence, surveillance,
reconnaissance systems, and battle command capabilities. CECOM conducts training
missions; provides field support; and provides logistical expertise for the ontime delivery
of equipment, services, and capabilities to the warfighter.

According to TACOM, it is one of the U.S. Army’s largest weapon systems research,
development, and sustainment organizations. It provides the warfighter with assets for
lethality, survivability, mobility, and sustainment in the battlefield. Additionally, it
develops, acquires, fields, and sustains soldier and ground systems for the warfighter
through the integration of effective and timely acquisition, logistics, and cutting-edge
technology.

Control Weaknesses in Developing Individual
Equipment Requirements for Sustainment
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the NTM-A/CSTC-A process for developing ANA individual equipment
requirements for sustainment. Specifically, NTM-A/CSTC-A relied on anecdotal
evidence, experience, and professional judgment to develop the recapitalization rates;
could not determine the portion of items identified for recapitalization or the process used
to develop the requirements for the budget; did not request all necessary maintenance
data from the contractors’ maintenance systems; and did not request subject-matter
expertise from the LCMCs in developing sustainment requirements for individual
equipment used by the ANA. We will provide a copy of the report to the senior official
responsible for internal controls in NTM-A/CSTC-A.




                                             3

Finding. NTM-A/CSTC-A Process for
Developing Sustainment Requirements for
ANA Individual Equipment Was Inadequate
NTM-A/CSTC-A did not develop adequate sustainment requirements for the 15 types of
ANA individual equipment items that we reviewed. Specifically, NTM-A/CSTC-A did
not develop supportable equipment recapitalization and maintenance requirements.

This occurred because NTM-A/CSTC-A:

 	 relied on anecdotal evidence, experience, and professional judgment to develop the
    recapitalization rates. As a result, NTM-A/CSTC-A had no assurance that
    2,613 individual equipment items, costing $5.6 million, planned for recapitalization
    in FY 2012 were sufficient to replace irreparably damaged or lost items.

 	 could not determine the individual equipment items identified for recapitalization or
    the process used to develop the requirements for the FY 2007 through FY 2011
    budgets. Therefore, NTM-A/CSTC-A had no assurance that items would be
    available to replace an estimated 29,569 irreparably damaged or lost ANA
    individual equipment items, valued at approximately $49 million, acquired before
    FY 2012.

 	 did not request all necessary maintenance data from the contractors’ maintenance
    systems and, as a result, did not have information needed to make informed
    decisions on sustainment for individual equipment items for the ANA.

 	 did not request subject-matter expertise from the LCMCs in developing sustainment
    requirements for individual equipment used by the ANA, which resulted in
    NTM-A/CSTC-A’s not having the information needed to make informed decisions
    on sustainment for individual equipment items for the ANA.
All of the above could adversely affect the availability of serviceable equipment, impact
the ability of the ANA to sustain operations, and hinder the effective transition of security
responsibilities to the GIRoA by 2014.

Availability of Recapitalization Rate Data
NTM-A/CSTC-A did not develop supportable equipment recapitalization requirements
because officials relied on anecdotal evidence, experience, and professional judgment to
                                           develop equipment recapitalization rates.
 NTM-A/CSTC-A…officials relied on          According to the previous Deputy
 anecdotal evidence, experience, and       Commander-Programs at NTM-A/CSTC-A,
 professional judgment to develop          officials based recapitalization requirements
 equipment recapitalization rates.         identified within the FY 2012 budget on
assumptions because data were not available to determine actual attrition rates for


                                             4

individual equipment items. Additionally, NTM-A/CSTC-A officials stated that they had
no formula or data to use to determine percentages for recapitalization rates and,
therefore, relied on anecdotal evidence obtained from observations made during site visits
to locations throughout Afghanistan. For example, NTM-A/CSTC-A officials stated that
they discussed equipment recapitalization rates for different commodity groups. The
discussion resulted in assumptions that vehicles lasted longer than weapons and,
therefore, have a lower attrition rate than weapons. Similarly, radios had a higher
attrition rate than weapons because of the increased use and handling of the items.

Accordingly, NTM-A/CSTC-A assigned the following FY 2012 recapitalization rates to
different commodity groups based on these assumptions: 5 percent for weapons;
10 percent for communications equipment; and 5 percent for all other ANA equipment.
Furthermore, the recapitalization rates only applied to equipping assets planned for
procurement in FY 2012 and did not take into consideration individual equipment
replacements or battle damage losses for previously acquired assets. Table 1 identifies
the total number and cost in the FY 2012 budget justification allocated for
recapitalization for the 15 types of individual equipment items reviewed.

     Table 1. FY 2012 ANA Individual Equipment Rates, Quantity, and Costs
      Individual        Total Quantity    Recapitalization Recapitalization
  Commodity Group        Planned for         Quantity             Cost
       and Rate         Procurement*
Weapons (5 percent)              31,670              1,508        $2,366,190
Communications                   12,153              1,105         3,210,181
(10 percent)
OCIE** (5 percent)       Undetermined       Undetermined       Undetermined
  Total                          43,823              2,613        $5,576,371
* Includes recapitalization quantity. 

** Specific amounts for helmets and individual body armor could not be determined because amounts for 

these items were included in the overall OCIE budget justification.


As a result of using anecdotal evidence, NTM-A/CSTC-A had no assurance that the
2,613 individual equipment items, costing $5.6 million, planned for recapitalization in
FY 2012 were sufficient to replace irreparably damaged or lost items. NTM-A/CSTC-A
did not establish and use supportable recapitalization rates, which may impact the ability
of the ANA to perform its mission. NTM-A/CSTC-A should develop and implement a
plan to identify and obtain the specific data necessary to adequately support individual
equipment recapitalization requirements.

Use of Recapitalization Items
NTM-A/CSTC-A officials could not determine the items identified for recapitalization or
the process used to develop the requirements for the FY 2007 through FY 2011 budgets.
NTM-A/CSTC-A officials stated that the FY 2012 budget justification included amounts
for recapitalization of individual equipment. We also identified recapitalization for
individual equipment items in the FY 2009 through FY 2011 budget justifications.

                                                  5

However, officials used the recapitalization items to equip newly fielded ANA units. The
new units resulted from increases in the overall ANA force level from 70,000 to 192,000
since FY 2007. According to NTM-A/CSTC-A officials, they designated as a priority the
use of individual equipment items for initial equipping until they could equip all new and
previously fielded units at 100 percent. NTM-A/CSTC-A officials anticipated that the
ANA would be fully equipped by 2012, and it was their intent to redirect assets from
equipping to sustainment starting in FY 2013. NTM-A/CSTC-A officials did not adjust
the recapitalization requirements when officials did not use FY 2007 through FY 2011
individual equipment items as budgeted. Using NTM-A/CSTC-A’s FY 2012
recapitalization rates, Table 2 shows an estimate of at least 29,569 items, valued at
approximately $49 million, would be required to recapitalize 286,216 items procured or
donated for the 15 types of individual equipment items reviewed.

   Table 2. FY 2007 Through FY 2012 Individual Equipment Recapitalization 

                          Requirements Estimate* 

 Individual Equipment      Quantity     Recapitalization   Total Cost for
         Items            Procured or       Quantity      Recapitalization
                          Donated**
M16A2 Rifle                    58,712              4,764       $5,716,545
9MM Pistol                     12,838              1,720          911,709
M4 Rifle                                    15,663                   1,838              2,802,599
M249 Machine Gun                             7,323                     851              3,743,265
M240B Machine Gun                            5,713                     648              5,123,057
M24 Sniper Rifle                             3,929                     478              3,587,440
M203 Grenade Launcher                        7,441                   1,012              1,214,533
RPG-7 Grenade Launcher                         227                      42                166,323
Tactical Telephone w/                        7,228                   2,112              1,028,375
Field Wire
VHF Manportable Radio                        1,098                     245             1,035,332
HF Manportable Radio                         3,386                     852            13,257,836
VHF Handheld Radio                           2,000                     937             1,380,375
Night-Vision Goggles                         4,747                   1,084             4,508,397
Helmets                                     95,584                   6,211               925,247
Individual Body Armor                       60,327                   6,775             3,103,834
  Total                                    286,216                  29,569           $48,504,867
* The table includes an estimated amount of items procured or donated from FY 2007 through FY 2011
and estimated amounts of recapitalization requirements for those items through FY 2012. The table does
not include recapitalization requirements for equipment procured in FY 2012.
** The Defense Security Cooperation Agency provided data on the number and value of equipment
acquired for FY 2007 through FY 2011; however, not all of the data provided were complete, as some case
detail reports did not contain shipping dates.



                                                   6

NTM-A/CSTC-A had no assurance that individual equipment items for recapitalization
would be available for individual equipment acquired through FY 2011.
In this regard, NTM-A/CSTC-A did not identify recapitalization requirements for
individual equipment items purchased or donated in previous years, which had an
immediate impact on the ANA’s ability to perform its mission and could ultimately
hinder the effective transition of security responsibilities to the GIRoA by 2014.
NTM-A/CSTC-A should determine the condition of individual equipment items acquired
before FY 2012 and develop a plan to identify recapitalization requirements for these
items.

Use of Contractor Maintenance Data
NTM-A/CSTC-A did not develop supportable maintenance requirements because
officials had not requested all necessary maintenance data from the contractors’
maintenance systems. Current maintenance contracts require the contractors to maintain
an equipment database that provides the status and tracking of equipment repairs and to
assist NTM-A/CSTC-A in predicting necessary stock levels. The contracts required
contractors to periodically provide NTM-A/CSTC-A electronic reports prepared from
their equipment databases.

NTM-A/CSTC-A officials received from the contractor’s monthly weapon reports that
contained information on closed and open work orders, weapons awaiting parts and
maintenance, estimated delivery date of the parts required to complete the job, and a parts
list required to complete repairs. NTM-A/CSTC-A officials also received weekly
communications status reports, which contained information on the number and type of
communication items repaired by each training group.

Although maintenance contractors consistently provided NTM-A/CSTC-A officials with
periodic reports prepared from their databases, the reports did not contain data needed to
establish accurate maintenance requirements. The contractors’ reports did not
consistently include information on the total number of equipment items repaired, the
types of repairs, the number of nonrepairable items, or the number of items lost.

Even though the necessary information may be available within the contractors’
databases, NTM-A/CSTC-A officials did not request that contractors provide the data.
As a result of not requesting the data, NTM-A/CSTC-A did not have all available
information to make informed decisions on maintenance requirements for proper
individual equipment sustainment planning, which could ultimately affect the availability
of serviceable equipment to sustain ANA operations. NTM-A/CSTC-A should develop
and implement a plan to identify the specific data needed to adequately determine
individual equipment maintenance requirements by obtaining and using relevant data
available from contractors.




                                            7

Use of Life Cycle Management Command Expertise
NTM-A/CSTC-A did not obtain subject-matter expertise or assistance from the LCMCs
to support sustainment requirements. NTM-A/CSTC-A did not always have subject-
matter experts available in Afghanistan to assist with the development of sustainment
 NTM-A/CSTC-A did not              requirements, due in part to the frequent personnel
 always have subject-matter        rotations. However, U.S. Army Commands located
 experts available in              stateside use the LCMCs to develop sustainment
 Afghanistan to assist with the requirements for individual equipment items used by
 development of sustainment        U.S. Forces. Use of LCMCs to develop ANA
 requirements.                     individual equipment items sustainment requirements
                                   could have provided continuity of subject-matter
expertise to lessen the impact of frequent changes in NTM-A/CSTC-A personnel.

Although NTM-A/CSTC-A used CECOM in a limited capacity for oversight of
communication asset maintenance contracts, NTM-A/CSTC-A did not request CECOM’s
assistance in developing sustainment requirements for the communication equipment
used by the ANA. Similarly, NTM-A/CSTC-A did not use the expertise available at
TACOM to develop sustainment requirements for weapons or OCIE, even though useful
data were available.

TACOM also has maintenance data for weapons provided to countries that purchase
equipment from the U.S. Government through Foreign Military Sales.3 Available
maintenance data included contractor-developed spare parts listings for each standard
weapon in use by U.S. Forces. The spare parts list for the M-9 pistol identified
52 separate spare parts, and the required number of each spare part, based on 1- and
2-year maintenance cycles for U.S. Forces during peacetime operations. The spare part
listing would form the basis for establishing maintenance requirements for similar
weapons used in Afghanistan in the absence of available historical data.

By not using subject-matter expertise within DoD for establishing maintenance
requirements, NTM-A/CSTC-A officials were not in a position to make informed
decisions on sustainment of ANA individual equipment items. To improve ANA
equipment sustainment decisions, NTM-A/CSTC-A should obtain information available
from LCMC subject-matter experts to assist with the development of sustainment
requirements for ANA individual equipment items.




3
 Foreign Military Sales represent a government-to-government method for selling U.S. defense equipment,
services, and training.

                                                  8

Recommendations, Management Comments, and
Our Response
We recommend the Commanding General, NATO Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan:
      1. Develop and implement a plan to identify all data necessary to support
Afghan National Army individual equipment item:
              a. Recapitalization requirements by obtaining and using relevant
data available throughout NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan and other DoD organizations.

NTM-A/CSTC-A Comments
The NTM-A/CSTC-A Chief of Staff, Deputy Commander-Army, responded on behalf of
the Commanding General, NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan. He agreed with the recommendation, stating that the
recapitalization process was no longer used to replace nonserviceable or nonmission-
capable ANA equipment. Rather, the Chief of Staff stated that NTM-A/CSTC-A
guidance called for a one-time purchase of “float” equipment to be procured at between 1
percent to 10 percent of Tashkil authorizations for vehicles, weapons, and
communications. The equipment items were to be held at the National or Regional Depot
level, to be issued out as required to replace nonmission-capable ANA equipment. Once
repaired, the particular piece of equipment would be added to the “float” equipment pool.
He stated that this information was included in the FY 2013 budget justification and
presented at the February 2012 Equipping Requirements Program Objective
Memorandum Review by Deputy Commander-Army to senior leadership within the
command.

Our Response
The Chief of Staff’s comments were responsive. The actions taken by NTM-A/CSTC-A
to discontinue the recapitalization process were responsive to the recommendation and
conformed to requirements. No additional comments were required. Any future
procurement of individual equipment to replace nonserviceable or nonmission-capable
ANA equipment should be supported with relevant data available throughout NTM-
A/CSTC-A.

              b. Maintenance requirements by requiring contractors responsible
for maintaining Afghan National Army weapons and communication equipment to
provide the necessary data.

NTM-A/CSTC-A Comments
The Chief of Staff agreed, stating that the command was reorganized to meet the
changing requirements. Specifically, the Chief of Staff stated that the Deputy
Commander-Support Operations became responsible for theaterwide logistics, including

                                           9

maintenance. Deputy Commander-Support Operations has an ongoing bridge contract,
which is scheduled to expire in August 2012, and which would be followed by a new
6-month contract with an option for an additional 6 months. The contract provides
organizational- and general-level maintenance, as well as, unit armorer training. To date,
on-the-job training and train-the-trainer programs have been incorporated into the
contract. Additionally, he stated that the Deputy Commander-Support Operations
Primary Contracting Officer’s Representative was receiving monthly maintenance reports
from the contractor that identified weapons that had been serviced or repaired, were
awaiting parts, or were not repairable. The reports captured all weapon systems on the
Tashkil.

Our Response
The Chief of Staff’s comments were partially responsive. He stated that the command
was reorganized with the Deputy Commander-Support Operations being assigned
responsibility for theaterwide logistics, including maintenance. In addition, the Chief of
Staff stated that the Deputy Commander-Support Operations Primary Contracting
Officer’s Representative was receiving monthly maintenance reports from the contractor
that identified weapons that had been serviced or repaired, were awaiting parts, or were
not repairable. The Chief of Staff’s comments also included a snapshot of the
contractor’s maintenance management system, which we reviewed during our audit.
However, the Chief of Staff’s comments did not address contractor-provided data for
communications equipment. As stated in the audit report, the contractor maintenance
reports did not consistently include information on the total number of equipment items
repaired, the types of repairs, the number of nonrepairable items, or the number of items
lost. This information is needed to establish accurate maintenance requirements for both
weapons and communication equipment. We request that the Commanding General,
NATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan provide additional comments on the final report.
       2. Determine the condition of individual equipment items acquired before
FY 2012 and develop and implement a plan to identify recapitalization
requirements for these items.

NTM-A/CSTC-A Comments
The Chief of Staff agreed, stating that the command was reorganized to meet the
changing requirements. Specifically, he stated that the Deputy Commander-Support
Operations is now responsible for theaterwide logistics, including maintenance and
sustainment of the ANA. The Chief of Staff stated that the Deputy Commander-Support
Operations had representation throughout the theater at Regional Support Commands,
which were directly aligned to the Regional Commands. The Regional Support
Commands were the initiators of the NTM-A/CSTC-A feedback loop with regard to the
status of the condition of equipment. They monitor equipment conditions through
WEBMANAGE, manufacturer’s technical data, and historical data for in-country wear
and tear. In addition, the Chief of Staff restated that recapitalization was no longer the
practice for acquiring and replacing materiel within the ANA.


                                            10

Our Response
The Chief of Staff’s comments were responsive. The actions taken by NTM-A/CSTC-A
to reorganize the command, monitor the condition of individual equipment items, and
discontinue the recapitalization process met the intent of the recommendation and
conformed to requirements. No additional comments were required.

       3. Obtain information available with subject-matter experts at the Life Cycle
Management Commands to assist with the development of sustainment
requirements for the Afghan National Army individual equipment items.

NTM-A/CSTC-A Comments
The Chief of Staff agreed, stating that the Security Assistance Office had begun assisting
ANA in the development of a sustainment plan that would encompass the purchase of
spare components at a rate consistent with individual equipment wear through usage. He
stated that continued close coordination with the LCMCs was integral to achieving this.
Additionally, the Chief of Staff stated that appropriate technical manuals, translated into
Dari, were to be procured to allow the Afghanis to gradually take the lead in sustaining
their equipment.

Our Response
The Chief of Staff’s comments were responsive. The actions taken by NTM-A/CSTC-A
to coordinate with LCMCs in the development of a sustainment plan for the ANA met the
intent of the recommendation and conformed to requirements. No additional comments
were required.




                                            11

Appendix. Scope and Methodology
The audit was announced in April 2011 and reannounced in July 2011 to focus the
objective on sustainment requirements. We conducted this performance audit from April
2011 through March 2012 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

To perform the audit, we reviewed the sustainment planning and processes for
determining the number of equipment items required for ANA individual equipment
sustainment through recapitalization. We also defined individual equipment to be
anything worn or carried by the soldier, including small arms, communication equipment,
and OCIE.

We identified a sample from the Solar Year 1390 ANA Tashkil of 189 individual
equipment items from a universe of 1,140,684 equipment items required. Based on the
quantity of equipment items identified in the Tashkil, we selected to review sustainment
planning for 15 mission-critical individual equipment items with the highest required
quantities. This sample included the M16A2 rifle, 9MM pistol, M4 rifle, M249 machine
gun, M240B machine gun, M24 sniper rifle, M203 grenade launcher, RPG-7 grenade
launcher, tactical telephone with field wire, VHF manportable radio, HF manportable
radio, VHF handheld radio, night-vision goggles, helmets, and individual body armor.
Based on the ANA Tashkil, these 15 types of items in 3 commodity areas accounted for
659,144 individual equipment items, with a total cost of approximately $667.6 million.

To accomplish the audit objective, we met with the following offices and reviewed the
following data:

   	 We contacted officials from the following offices to understand their roles in
      developing ANA individual equipment sustainment requirements plans and
      processes and to obtain data to support the plans and processes in place:

           o	 NTM-A/CSTC-A, Deputy Commander-Programs. In November 2011,
              NTM-A/CSTC-A redesignated Deputy Commander-Programs as the
              Deputy Commanding General, NTM-A/CSTC-A, Deputy Commanding
              General-Support. Additionally, Deputy Commander-Programs oversight
              for CJ-4 Logistics and CJ-6 Communications transferred to the
              NTM-A/CSTC-A Chief of Staff.
           o	 NTM-A/CSTC-A, Security Assistance Office-Afghanistan
           o	 NTM-A/CSTC-A, CJ-4 Logistics
           o	 NTM-A/CSTC-A, CJ-6 Communications




                                           12

           o	 NTM-A/CSTC-A, CJ-7 Force Integration and Training. In November
              2011, CJ-7 dissolved, and its responsibilities transferred within
              NTM-A/CSTC-A.
           o	 NTM-A/CSTC-A, CJ-8 Comptroller
           o	 Defense Security Cooperation Agency
           o	 CECOM
           o	 TACOM
           o	 Program Executive Office-Soldier
           o	 Project Manager Soldier Weapons.

   	 We analyzed the FY 2007 through FY 2012 ASFF Annual Budget submissions
      and justifications to identify recapitalization and sustainment requirements in each
      of the fiscal years.

   	 We reviewed current maintenance contracts for weapons and communications to
      identify contractor reporting requirements and data available to support
      sustainment requirements.

   	 We reviewed NTM-A/CSTC-A’s Common Operating Picture slides to identify
      the pseudo-Foreign Military Sales case numbers for our 15 individual equipment
      items. After obtaining the case numbers, we requested case detail reports from
      the Security Cooperation Information Portal (SCIP). We then applied
      NTM-A/CSTC-A’s annual recapitalization rates from FY 2012 to all shipments
      from FY 2007 through FY 2011 to estimate the attrition of these individual
      equipment items. We started this attrition calculation the year after the individual
      equipment items were shipped to Afghanistan. We totaled the estimated quantity
      and cost of recapitalization for equipment purchased or donated from FY 2007
      through FY 2011 that had not been purchased for recapitalization before 2012.

Use of Computer-Processed Data
We relied on computer-processed data from the SCIP system. The SCIP system allows
customers to obtain or view information related to their Foreign Military Sales cases. We
used SCIP to obtain case detail reports to determine individual equipment procurements
and donations issued in FY 2007 through FY 2011.

We compared the SCIP case detail reports to NTM-A/CSTC-A’s Common Operating
Picture slides to determine the quantities and timeframes for individual equipment item
procurements or donations from FY 2007 through FY 2011. As a result of our analysis,
we considered the data within the SCIP system sufficiently reliable for the purpose of our
review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) have issued three reports discussing
topics related to ANA sustainment costs and requirements. Unrestricted GAO reports

                                           13

can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-11-66, “Afghan Army Growing, but Additional Trainers Needed;
Long-Term Costs Not Determined,” January 27, 2011

GAO Report No. GAO-08-661, “Further Congressional Action May Be Needed to
Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan National
Security Forces,” June 18, 2008

DoD IG
DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010




                                          14

NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan Comments




 I    ~ NTM -A                                         HEADQUARTERS
                                            NATO TRAINING MISSION - AFGHANISTAN
     \'I'~ ::;-:-"                 COMBINED SECURITY TRANSITION COMMAND - AFGHANISTAN
      '-.'1/ AfGHANISTAN                               KABUL, AFGHANISTAN
                                                          APOAEOg356
                 REPLY TO
                 ATTENnON OF




           NTM-AiCSTC-AIDCOM-A                                                             23 APR 20 12

           MEMORANDUM THRU

           United States Forces - Afghanistan (CJIO). APO AE 09356
           United States Central Command (CCIG), MacDiU AFB, FL 33621

           FOR Oftice of the LJepartment of Defense Inspector General (DoD 10), 4800 Mark Center
           Drive, Alexandria, Virginia 23350

           SUBJECT: NTM-AiCSTC-A Response to the Draft Report "Development oflndividual
           Equipment Requirements for the Afghan National Army Needs Improvement" (ODD IG Audit
           D2011-DOOOAT-0222.000)


           1. Reference: Draft Report, dated 2 Apri l 2012, Department of Defense Inspector General (000
           10), subject as above.          Click to add JPEG file
           2. The purpose of this memorandum is to provide formal comml!nl:s to DoD IG' s draft report
           provided Lo this office on 2 April 2012.

           3. Point of contact for this action is at




           2 Encls
           1. General Comments on tbe Report
                                                                  ~HTS
                                                                  CO L, US Anmy
           2. 000 10 Audit: Weapumi Pn;;sentation                 Chief of Staff, DCOM-A




                                                                            15
                                   DRAFT REPORT
  " Development of lndividua l Equipment Requirements fo r th e Afgh a n Nation al Army
            Needs Improve ment" (DoD IG Audit D2011 -DOOOAT-02 22.000)

                                     NTM-A/CST C-A 

                       GENERAL COMMENT S ON T H E REPORT 

Page 91 Section "Reco mmendations" the Report states:

We recommend the Commanding GCllcnli l NATO Training Mission-AfgharustanlCombincd
Security Transition Command-Afghanistan:

   I. 	 Dcvelop and implement a plan to identi fy all data necessary to support Afghan National
        Anny individual equipment item:
          a. 	 Recapiwlization requirements by obtaining and using relev<Ult data available
               throughout NATO Training Mission-Afghanistan/Combined Security Transition
               Com mand-AJghanismn and other DoD organizat'ions.
                  i. 	 NTM -A/CSTC-A Respon se: NTM-A/ CSTC-A            COllCurS.

                 ii. 	 NTM-N CSTC·A at present is not uiilizing the recapitalization process to
                       replace non-serviceable or non-mission capable A fg11311 National Amly
                       cquipment. Currem NTM-A guidance calls for a ouc time purchase of
                       "float"' cquipmcnt to be procured at between 1-10 percelll ofTashkil
                       authorizations for vehicles, weapons and communications to be held at the
                       National or Regional Depot level to be issued out as required to replace
                              Click to add JPEG file
                       Ilon·mission capable Afghan National Army equi pment. Once repaired
                       the particular piece of cquipmcnt will be added to the " float" equipment
                       pool. Tbis infomlatioll was included in the FY I3 JBook Input and
                       presented at the February 20 12 at the Equippil1g Requirements POM
                       Review by DCOM 4A to senior leadership within the command.
          b. 	 Maintenance rt.'<juiremcnts by requiring contraclQrs responsible for maintuining
               Afghan National AmlY weapons and communication equipment to provide the
               necessary data.
                  i. 	 NTM-A/CSTC-A Respon se: NTM -AiCSTC·A concurs.
                 1I .    N"rMA-CSTC-A reorgani zed to meellhe changing requirements. DCOM ­
                        Support Operations (SPO) is now responsible for theuter-wide logistics,
                        including maintenance. They currently have an ongoiug bridge contract
                        scheduled to expire AUG 20 12, which will be followed by a new six
                        month contract that has an option for another six more months .. "'be
                        contract provides organizational and general level maintenance, as well as
                        unii armOTCr training. To daie, OJT and a train the trainCT program has
                        been incorporated into the contract, all towards the sustain ment of the
                        ANA weapons.
                 iii. The DCOM-SPO Primary Contracting Officer's Representative (peOR)
                      receives monthly maintenance reports from the Contractor, that identifies
                      weapons that have been serviced, repaired, awaiting parts, deadlines and
                      non-reparable. The reports captures all weapon system on the ANA
                      Tasbkil e.g. tbe weapons in question: M4. M9 1 M 16, M24, M203. M240.


                                             Page I of 2




                                                             16
                                   DRA FT REPORT
  " Development of lndividua l Equipment Requirement s for th e Afgha n National Army
            Needs Imp rove ment" (Do D IG Audit D2011 -DOOOAT-0222.000)

                                          NT M-A/CST C-A
                          GENERAL COMMENTS ON T H E REPO RT
                         M249 & RPG-7. Examples of these reports and a snap shot of the
                         Contractor's maintenance management system were given to the DOD IG
                         Representatives in NOVI I (See Enclosure 2).

   2. 	 Detemli ne the condition of individual equipment items acquired belore FY20 12 and
        develop and implement a pl:m to idcntify recapi talization rC<luircmcnts fo r thesc itcms.
          a. 	 NT M-A/CSTC-A Response: NTM-AfCSTC-A concurs.
          b. 	 As previously stated. l\rrMA-CSTC-A reorganized to meet the changing
               rcquircments. DCOM-Suppon Operations (SPO) is now responsible for theatcr­
               wide logistics, including maintenance and sustainment of the A fghan National
               Army. DCOM- SPO has representation throughout the theater as Regional
               Support Commands (RSC). which are directly aligned to the Regional
               Commands. They are the initiators of the NTM·AfCSTC-A feedback loop with
               regards to equjpmenl condition status. They monitor equipment conditions
               through the utilization of WEBMANAGE. Manufacturer's technical data, and
               historical data for in-country wear & tear.
          c. 	 The concept of recapitalization is no longer the practice for acquiring/replacing
                               Click to add JPEG file
               materiel within the Afghan National AnDy.
   3. Obtain infomlatioll available with subject·matier ex perts at the Life Cycle Management
      Co mmand to assist with the development ofsuslaimllent requirements for the Afghan
       TationaJ Army individual C<luipmcnt items.
          il . 	   NT M-A/CSTC-A Resnonse: !\fTM·AlCSTC-A concurs.
          b. 	 The NTM· Af CSTC·A Security Assistance O ffi ce (SAO) has initiated a process
               of assisting ANA in the development of a sustain ment plan that encompasses the
               purchase of spare components at a ratc consistcnt with individual equipment wear
               through usage. Continued close coordination with the LCMCs has been integral
               to achieving this. Additionally~ appropriate technical manuals (translated into
               Da d) will be procured to allow the Afgbans to gradually take tbe lead in
               sustaining their equipment.




A PPROVED flY: 	                                                     PRE PAR ED B Y:

Acting G4. DCOM·A 	                                                  NTM-A/CSTC-A
                                                                     G4 Advisor, DCOM-A




                                            Page 2 01'2




                                                             17
